No.

IN THE SUPREME COURT OF THE UNITED STATES

In re WILLIAM HENRY HAMMAN

ON PETITION FOR A WRIT OF HABEAS CORPUS

PETITION FOR A WRIT OF HABEAS CORPUS

WILLIAM HENRY HAMMAN
WILL@FREEWILL.ROCKS
ALFRED RISIEN HAMMAN
ALFRED@HAMMAN.NET
1209 N. WESTMORELAND DR.
ORLANDO, FL 32804
407-421-9323

Questions Presented
1) Florida’s public colleges and universities each
require a high school GPA in order to participate in
the Dual Enrollment program. But law states that
“A high school grade point average may not be
required for home education students” Florida
Statute 1007.271(13)(b)(2)
The question is: Does the 14th amendment’s guarantee
of equal protection extend to Florida’s children here, or
may the executive willfully break the black letter of
law and defraud a substantial class of children.
2) Florida Statute clearly specifies the initial eligibility
requirements for the Dual Enrollment program which
grant a student legal eligibility to participate in the
program per FS 1007.271.
The executive requires
materially greater initial eligibility requirements than
law allows before they will provide the program to
people, people who’ve already been granted rights
under FS 1007.271. One example is cited in Pet. App.
al, FLSC 19-386 Mandamus 3-8-19 pp. 12,13
The question is: At what point does the 14th
amendment’s guarantee of substantive due process
rights to participate in the state’s education system
per law kick in and have effect; is it at the point of
attainment of the criteria specified in Florida Statute
1007.271, or does the 14th amendment’s substantive
due process guarantee only have effect at the point
Florida’s executive decides it shall?

1) Florida’s public colleges and universities each
require a high school GPA in order to participate in
the Dual Enrollment program. But law states that
“A high school grade point average may not be
required for home education students” Florida
Statute 1007.271(13)(b)(2)
The question is: Does the 14th amendment’s guarantee
of equal protection extend to Florida’s children here, or
may the executive willfully break the black letter of
law and defraud a substantial class of children.
2) Florida Statute clearly specifies the initial eligibility
requirements for the Dual Enrollment program which
grant a student legal eligibility to participate in the
program per FS 1007.271.
The executive requires
materially greater initial eligibility requirements than
law allows before they will provide the program to
people, people who’ve already been granted rights
under FS 1007.271. One example is cited in Pet. App.
al, FLSC 19-386 Mandamus 3-8-19 pp. 12,13
The question is: At what point does the 14th
amendment’s guarantee of substantive due process
rights to participate in the state’s education system
per law kick in and have effect; is it at the point of
attainment of the criteria specified in Florida Statute
1007.271, or does the 14th amendment’s substantive
due process guarantee only have effect at the point
Florida’s executive decides it shall?

3) Florida Statute 1007.271(13)(b) clearly states that
“Each public postsecondary institution eligible
to participate in the dual enrollment program
pursuant to s. 1011.62(l)(i) must enter into a
home education articulation agreement with
each home education student seeking
enrollment in a dual enrollment course”
But the executive claims that “Satisfying minimum
requirements does not guarantee admission to UCF”
on UCF’s Dual Enrollment web page located at
https://www.ucf.edu/admissions/undergraduate/dualenrollment-earlv-admission/ (to Dual Enrollment link)
The question is: Is this a breach of the 14th
amendment’s guarantee of procedural due process, or
does the university offer the due process guaranteed
under Carey v. Piphus, 435 U.S. 247 (1978) of which I
am not aware?

u

Table of Contents
1
Questions Presented....................................
in
Table of Contents.........................................
Table of Authorities.....................................
IV
Petition for Writ Of Habeas Corpus..........
1
1
Constitutional Provisions............................
Jurisdiction..................................................
1
Statement of the Case.................................
2
Illegal Acts & Methods of Restraint.
2
Historically Unique Unconstitutional Abuse... 10
Nature of the Restraint on Personal Liberty... 19
Reasons for Granting the Writ.
27
Conclusion.................................
28
Appendix........... .......................
Vol. 2
FLSC 19-386 Mand. Pet. 3-8-19 pp. 12,13
“Illegal Testing Requirements”........
al
FLSC 19-386 Mandamus 3-8-19 pp. 18-22
“Cook Confrontation”........................
a2
FLSC 19-386 Mandamus 3-8-19 pp. 22-24
“Changing Disputed Policy Mid-Trial”..a6
FLSC 19-386 Reply to Resp. 3-22-19 pp. 7-10
“Fraudulent Use of Police Force”
a8
FLSC 19-386, 3-25 Appendix
“email to State Reps”..................
all

iii

Table of Authorities
Cases
Carey v. Piphus, 435 U.S. 247 (1978).......
Comcoa, Inc. v. Coe, 587 So.2d 474 (1991)
Statutes
28 U.S.C. § 2241....................................
Rules Regulating The Florida Bar......
Florida Statute 1007.271......................
Florida Rules of Civil Procedure 1.630

i,7

4

1
Passim
Passim
3,7

Constitutional Provision
U.S. Constitution Article I, Section 9, Clause 2
.v
U.S. Constitution 14th Amendment.................. Passim
Authorities
Thomas Jefferson to A. H. Rowan, 1798,
Blackstone’s Commentaries...................

IV

19
18

Petition for Writ Of Habeas Corpus
I am held in illegal restraint of my liberty. Therefore,
I humbly petition this court for a writ of habeas corpus

Jurisdiction
This court enjoys jurisdiction for the common law writ
of habeas corpus, the one which the framers referred
to in the Suspension Clause; as well as jurisdiction for
the codified writ under 28 U.S. Code §2241

Constitutional Provisions Involved
United States Constitution Article One, Section Nine
clause 2
"The privilege of the writ of habeas corpus
shall not be suspended, unless when in cases
of rebellion or invasion the public safety may
require it."
United States Constitution, Amendment XIV
“No State shall ... deprive any person of
life, liberty, or property, without due
process of law; nor deny to any person
within its jurisdiction the equal
protection of the laws.”

1

Statement of the Case
Illegal Acts & Methods of Restraint
I’m a 12th grade Home Education student, legally
eligible to participate in the Dual Enrollment program
per Florida Statute 1007.271(13) but am denied that
explicit statutory right by the executive
Florida Statute 1007.271(13) clearly defines exactly
which home education students are legally eligible and
must be allowed to participate in the program, exactly
who must provide the program, and exactly what the
program must consist of; using the rare term of
imperative mandate “must” three times, once for each.
Equal protection under the law and substantive due
process of the state’s education system are guaranteed
through the 14th amendment of the United States
Constitution
Equal protection and substantive due process is
willfully denied by the executive branch of Florida, as
UCF intentionally breaks the black letter of law in
denying my right to participate in the state’s education
system in compliance with F.S. 1007.271(13) in several
objective ways.
The first and most explicit is the Home Education GPA
requirement, as follows:
SINGLE POINT OF FACT:
UCF requires a 3.8 GPA from home education
students to participate in the program.
https://
www.ucf.edu/admissions/undergraduate/dualenrollment-earlv-admission/
SINGLE POINT OF LAW:
“A high school grade point average may not
be required for home education students”
Florida Statute 1007.271(13)(b)(2)
2

This is just one of the policies through which I’ve been
illegally denied school for more than three full years
during which I had planned to finish my 4 years of
college.
I have been illegally denied the full and
complete effect of seven years of education.
UCF also denies my right to procedural due process
guaranteed under the 14th.
I am still in denial of
any opportunity to appeal this on the substance as is
guaranteed through Carey v. Piphus
435 US 247 (1978). In Piphus, the bar was set at 20
days worth of education denied without the procedural
due process of an appeal on the substance.
I’ve been
arbitrarily denied around 14,000% more education
than Piphus with no appeal and no end in sight
Tyranny is fundamentally defined as the exercise of
arbitrary discretion over duties which are mandated
by Constitution or law. Therefore, Florida’s Executive
is clearly guilty of tyranny based on their own words.
Beyond this, as shown below, all three branches of
Florida’s government have arbitrarily abused my
constitutional and statutory rights. Therefore this is
the same tyranny which the founders faced, and
precisely what the word “tyranny” means in common
language dating back to the Magna Carta
ARBITRARY ABUSE BY THE EXECUTIVE BRANCH
of my Constitutional Substantive Due Process Right
under the 14th amendment to the education system of
the state of Florida,
Explicit, indisputable proof of
this by the Executive branch is in the Board of
Governors’ own words as hosted on the UCF website
as pleaded above. This is clearly the arbitrary abuse
of my rights as well as the rights of a class consisting
of 1.5 million Florida minors in grades 6-12, because
each public college and university in Florida has a
similar raft of policies which arbitrarily abuse our
3

Willful abuse of my
substantive due process rights,
rights to procedural due process is replete in the
record and is explicitly shown under Piphus above
The executive has also criminally conspired with
BakerHostetler to commit fraud in the furtherance of
Florida’s Dual Enrollment Fraud upon me in
particular through Board of Governors member
institution University of Central Florida and through
the Board of Education’s member institution Valencia
College. This blithe fraud in the furtherance was not
only perpetrated upon us, but also upon the court in
each of the three levels of court in Florida
A)
Cook confrontation - beginning of the fraud in
the furtherance.
Pet. App. a2, FLSC 19-386
Mandamus 3-18-19 pp. 18-22
Several abuses of the RRTFB
B)
Trial court
including UCF illegally changing policy mid-trial.
Pet. App. a6, FLSC 19-386 Mandamus 3-18-19 pp.
22-24
Appeals court - smuggled lies in through
C)
response to injunction about fundamental nature of
fact in the dispute and misrepresented the state of law
to the degree prohibited by the RRTFB. Claimed that
disputed courses were bachelors level classes and lied
about the state of law claiming that bachelors courses
are in fact prohibited by law, both are lies evident in
record (5DCA-1797 passim, emanating from Temp Inj.
Response dated Sept 10)
D)
Supreme Court - Obstructed justice by
fraudulently using their police force to defraud my dad
of his constitutionally-guaranteed right to be at the
Board meeting per Florida’s Sunshine laws. Pet. App.
a8, FLSC 19-386 Reply to Response 3-22-19 pp. 7-10

4

ARBITRARY ABUSE BY THE JUDICIAL BRANCH of
my Constitutional Right to Procedural Due Process
Under the 14th amendment,
Procedural due
process, including extraordinary process, was abused
in UCF & Valencia College cases in trial court, abuses
which cascaded through Florida’s District Court of
Appeals and Supreme Court.
Even though the above allegations were all
procedurally agreed to in pleadings, the state of
Florida has ruled against correcting more than a dozen
obvious substantive due process violations and us.
Seven times,
We’re somehow 0-7 after properly
pleading the points of fact in “Questions Presented”.
Hamman v Valencia College suffered historic abuse of
extraordinary procedure including an order with four
different prejudicial statements in trial court after I
presented a facially sufficient petition for mandamus.
I argued over the microphone that his Honor did in
fact have to communicate with us ex parte and that it
was contrary to law to serve defendants per
Fla.R.Civ.P. 1.630 until after determination of prima
facie case for relief; with controlling precedent in hand
and proper law already stated and cited where the
service notice would have been. The above not well
taken by the bench, Judge Weiss issued the following:
“A hearing on Defendant's Pending Motion to
Dismiss Plaintiffs Complaint for Declaratory
Judgment is already scheduled for May 23,
2018. The sufficiency of the pleadings will be
determined thereafter. Furthermore,
"[m]andamus is not a favored remedy when
controverted issues of fact must be resolved.
The Plaintiff is reminded to serve documents
and./or pleadings on opposing counsel and
provide a certificate of service.” (Cites omitted)
5

(FI Ninth Circuit 482018CA000093A0010X,
Order dated May 4, 2018)
After a meritorious motion for reconsideration
containing all relevant case law and yet another
meritorious petition for mandamus were denied, we
were then forced to attend and survive the hearing on
the sufficiency of a complaint which was no longer the
controlling document in the case on May 23, 2018.
Since the one correct remedy for testing or coercing a
public right was relief in mandamus, that was the only
defense we were able to ethically and effectively mount
in response to Valencia’s assertions that the case
should be dismissed in the hearing on May 23.
We
clearly argued for our case in mandamus and the
Judge just as clearly treated our presentation as a
presentation of our case for relief in mandamus as our
only means of defense.
Judge Weiss himself asked
probing questions about the case for mandamus,
questions which could not whatsoever be considered to
be questions testing the sufficiency of the Complaints
in question for the noticed subject of the hearing. He
literally asked us if we didn’t think that the goal of our
efforts here to achieve relief in mandamus was an
issue better left to legislature.
We answered that
legislature had done their job, it was now up to the
judicial branch to do theirs.
Ultimately we were
forced to make our entire argument and give up our
two best responses to any possible answer upon the
Alternative Writ / Order to Show Cause.
5DCA-1797, Cert. Pet. June 19
In appeals court I showed a prima facie case for relief
in certiorari for several enumerated claims of
departures from essential requirements of law and for
one mandamus claim from the first Question
Presented which was ministerial under Comcoa, Inc. v.
Coe, 587 So.2d 474 (1991).
The words of the
6

preceding paragraph are essentially a quotation of the
cert petition filed June 19, 2018 in 5DCA-1797 which
won an alternative writ / order to show cause eight
days later. (5DCA-1797 Order Granting dated June
27, 2018)
Valencia’s response to the order to show
cause failed to address any point of the petition which
was granted. After we pointed out in reply that they
had failed to properly respond to the petition,
defendants then lied about the underlying issue in the
case to gaslight us to the court by lying about the
fundamental nature of a temporary injunction.
This had the effect of smuggling prejudicial lies into
consideration in circumvention of the extraordinary
process of law.
They lied to the Judge in pleadings
that the two courses sought were upper level courses
and therefore illegal when they were in fact associates
level and I in fact even had all of their prerequisites
met for the DIG2248, the hotly contested class. They
also lied about the state of law that upper level courses
werent legally available,
“Hamman requests an
injunction directing Valencia to allow him to
participate in DIG 2248 (an upper level course not
available to dual-enrollment students)” Respondents
Response dated 9-10 in 5DCA-1797 p. 6; & “dual­
enrollment students are not eligible to participate in
upper division courses” Respondents Response dated
9-10 in 5DCA-1797 p. 11. This is contradicted by the
first fine of Florida Statute 1007.271
“The dual enrollment program is the enrollment
of an eligible secondary student or home
education student in a postsecondary course
creditable toward high school completion and a
career certificate or an associate or
baccalaureate degree” FS 1007.271(1)
Which is an egregious act of fraud in and of itself
under the Rules Regulating The Florida Bar.
The
7

cabal so doing effectively gas-lit us to the court after
which the petitions that had already been granted,
including the count of mandamus which must be
ministerially granted under Comcoa, were inexplicably
denied in an unelaborated order by the Fifth District
Court of Appeals 5DCA-1797 Order dated Feb 24
Hamman v. UCF has a more egregious set of facts
with the additional unprecedented feature that the
case in trial court remains open and unresolved to this
day after the case has gone through appeals and
Supreme Court,
UCF also obstructed justice by
changing university policy in ways prohibited by the
Rules Regulating The Florida Bar during the case in
order to gaslight us to the trial court, Pet. App. a6,
FLSC 19-386 Mandamus 3-18-19 pp. 22-24; and then
again by fraudulently using the police force they are
entrusted with to defraud my dad of his liberty of free
movement to be in a UCF Board Meeting which is
ministerially open under the Florida Sunshine Laws.
Pet. App. a8, FLSC 19-386 Reply to Response 8-22-19
pp. 7-10
ARBITRARY ABUSE BY THE LEGISLATIVE
BRANCH of Taxation Without Representation,
We
have indisputably begged an inquiry and provided the
indisputable evidence of UCF’s illegal denials of
ministerial duties and provided court-authenticated
and procedurally agreed upon proof of criminal
conspiracy to several representatives; our local
representative Anna Eskamani, Valencia & UCF’s
representative Carlos Smith, and Speaker Jose Oliva
(who is also the Head of the House Ethics Panel.)
We also provided indisputable proof that this is the
predicate fraud to the Colbourne Hall E&G Fraud.
They were stealing from me and defrauding the state’s
1.5 million 6-12 graders and fraudulently filling the
E&G bucket with stolen funds which UCF claimed to
8

Florida’s House Integrity & Ethics Panel were simply
leftover funds, a claim contemporaneous with FLSC
19-386 & FLSC 19-522. In FLSC 19-386 I proved that
some of those funds had been stolen from Dual
Enrollment students. The letter I sent to each of the
above is in the Pet. App. all.
America held a revolution over this particular issue a
couple hundred years ago to the exact same cry of
“Tyranny” giving rise to the tea and blood soaked birth
of this great nation
Habeas Corpus, which is rooted in the Magna Carta
and forms the foundation of our legal system, is the
only available remedy for these kinds of tyrannical
acts.
Without this extraordinary relief, there is no
meaningful chance for adjudication on an appeal on
the substance through the courts before I will have
aged out of my last chance to register for the program
this November.
I should not have to wait until after
my education rights have expired for adjudication in
this or any court,
I do not believe Jarius Piphus or
anyone else has had to do such things to get their
hearing on the substance of a 20-day suspension of
rightful education. Jarius Piphus did not have to pray
for a Piphus hearing through 40 oddly sized saddle
stitched booklets on special paper. Twice.
Jarius Piphus’ offense was smoking marijuana on
campus during school in front of Principal Carey which
he personally witnessed,
My offense was asking a
judge if these policies were illegal after begging each
level of administration for an appeal on the substance
(with law in hand at each turn,) up to the presidents of
both UCF and Valencia. This is indisputably reflected
throughout the record.

9

Furthermore, Florida is funded by state sales tax, not
income tax.
My rights as a taxpayer are being abused. I am being
forced to pay for a system which denies me the
protection of law.
We are funding the executive
branch’s education system to which I have
indisputable fourteenth amendment substantive due
process rights but am illegally, perniciously and
persistently defrauded of through denial of the 14th
amendment’s guarantee of equal protection
As pleaded, this case claims due process violations of
Florida’s judiciary, as well as taxation without
effective representation by the legislature,
But we
are still forced to pay for each of these branches of
government as well as a taxpayer, funding institutions
which illegally deny my fundamental liberties
guaranteed under the 14th
That is both the textbook and common language
definition of slavery in addition to tyranny
Your Honor, I don’t know how to transition here, but
this is Wills Dad speaking to you now.
My little
family is learning as we go along and I am morally
grateful for your indulgence of our inelegance as
pleaders
One of the things we are learning to deal with in real
time is the fact that “medicine” has just tapped out
and that “medicine” just said that there is no known
hope for curing or even treating a devastating medical
condition which Will has developed.
And that any hope for Will’s life lay with “science” and
our ability to find an academic researcher who is
looking into the specific area of Will’s challenge, which
is apparently a needle in the stack of needles of the 99
percent of stuff coded by the human genome between
10

the genes which “science” itself is struggling to figure
out.
It is the next great frontier of scientific
understanding, “proteomics”, and the human proteome
is more than 100 times more complex than the 1% of
the human genome called the “whole exome” that we
can understand which first cost 2.7 billion dollars to
read
This doctor visit was weeks ago and we are processing
that amongst a staggering array of standard-issue
human tragedy.
That it is now up to “science”
And this is where my lack of skill in pleading will
become apparent.
Because my then-13 year old son
presented as legally eligible to the Dual Enrollment
program in 2016 to UCF in order to use his unique
research skills to research EXACTLY the tiny piece of
that 99% which translate and execute the 1% and
turns his DNA into flesh and bone which also happens
to be the next step in the state of science, and it
literally includes a quantum leap in the state of
human understanding.
The report from GeneDx, the class-leading clinical
genetic sequencing company, states “It is possible that
this [patient] has a pathogenic variant outside the
coding regions analyzed, or in a regulatory or deep
intronic region not detected by exome sequencing”
Here is the actual & date-stamped video that Will
presented to UCF and Valencia three and a half years
ago to take a D.I.S. class which Valencia’s Dean
Gessner subsequently approved and UCF’s molecular
biology department would have overseen per Florida
Statute 1007.271. https://youtu.be/3Ji2ZhNBUrc
It is indisputable that the course of education which
Will sought as his proper legal right, and was
academically granted by Valencia’s Dean of Science
11

but was illegally denied by administration, is also
exactly the place where three & a half years later
science says needs to be investigated for his life and
the state of science
He properly presented to participate in a Directed
Independent Study course per FS 1007.271 in which
he would run the experiments he had devised as his
proper course of study. And the course and level of
education as active researcher on the bleeding edge of
science is proper, as the video clearly shows him
actively synthesizing new science from primary peerreviewed scientific journal articles being published
contemporaneously with the video’s production.
One
of the papers had only been published a single day
before his filming of that video, he actually jokes about
it while he’s pondering the words to use to synthesize
the science he just read within the previous 24 hours.
Which is literally the underlying reason why this
entire suit even exists your Honor,
That is the
specific education which he was unconstitutionally
denied years before he got the damn disease.
All we seek here is exactly what Will was first
unconstitutionally denied then - participation in the
Dual Enrollment program per Florida Statute
1007.271 in a single one-hour Directed Independent
Study course which flows from the video he presented.
You will see through record that the stupidest of these
policies prevented that from occurring - an arbitrary
policy denying participation in one or two hour classes.
The policy easily fails the additional initial eligibility
clause of FS 1007.271(3) and therefore may not legally
exist.
You will see that this point has been pled
extensively throughout.
You will see through the record that Will properly
presented as legally eligible per Florida Statute
12

1007.271(13) and as such was legally eligible for
whichever course is appropriate for his education as
determined by the chair of each department,
It is
also the exact process which Valencia College followed
once in the exact same circumstance in the Digital
Media Technology department as is shown in the
procedural history.
Release him from the unconstitutional denial of his
right to life, liberty and the pursuit of property
through the denial of his protections guaranteed under
the 14th to due process and equal protection under the
law. Please coerce Governor DeSantis to immediately
follow the plain language of Florida Statute 1007.271
and enroll Will in the course of study he rightfully
sought and was academically granted years ago. The
Governor is using our taxes to employ the state’s best
molecular biologists & proteomicists and fund
experiments with exactly the gizmos he needed and
was illegally defrauded the right to access through
participating in a legal course in the program.
That is the closest that any human can do to correcting
the most tragic part of that particular abuse of my son.
I pray you do it quickly, because each day is a living
hell of pain which you cannot perceive nor thankfully
even imagine
You have seen Will in his own voice when he was
firing on all 8 cylinders at 13 years old before he got
debilitatingly sick, somehow seeking explicitly to
attack nothing less than the central dogma of biology
through simple experiments based on our unique
genetics and associated proteomics which he
hypothesized offer a rosetta stone for the final
scientific frontier,
One of the five molecules he had
specifically targeted to investigate first is actually
identified by name in the video - it’s called “Twinkle”.
It’s at 6:48 in the bottom left illustration as he talks
13

about how the mitochondria becomes supercharged by
working hand in hand with the nuclear DNA to use
helicases coded by nuclear DNA, not mitochondrial
DNA; and he then ties that directly with curing
human disease through understanding the genetic
“switches” of MicroRNA and the other stuff between
He just didn’t say that the disease he
the genes,
wanted to cure was his Dad’s
He then wrote these lawsuits which have now
uncovered billions of dollars of fraud upon millions of
naive minors simply as a means to get in the door to
the labs which the Governor controls through UCF.
Then he was himself tragically felled by illness,
arguably at the hand of the executive
And now, because no other person is fighting to
vindicate the obvious and naive abuse of the rights of
so many of his fellow kids, moral responsibility of
correcting the active and ongoing injury of the rights of
those 1.5 million other kids are upon his rapidly
wasting shoulders,
Habeas corpus is truly the only
remedy which could relieve my son of the primary
moral responsibility which the Fifth DCA & Florida’s
Supreme Court stuck him with of vindicating the
rights of so many innocent naive victims.
For uniquely extraordinary reasons, please take up a
plenary de novo review of all illegalities leading to the
restraint of our fundamental liberties; including a
simple assertion of the 14th amendments guarantees
and resulting executive responsibilities of the state
under Florida Statute 1007.271 enumerated in the
Questions Presented herein.
So that he may focus the little bit of him that hasn’t
yet wasted away on what he was illegally denied in the
first place (which just happens to be in the “vanguard
of scientific discovery” department.) A one-hour course
14

I am his home school teacher in all of this,
Four
years ago in eighth grade when I gave him the
comically absurd junior high biology assignment of
unraveling the 1.5 billion year old mystery of how the
mitochondria came to invade and then become
supercharged by the eukaryotic cell, I didn’t see this
He is objectively smarter than I am & his
coming.
I may be
vantage point is from atop my shoulders,
his teacher but I cannot solve this puzzle without him
and the x-factor that his mind represents in the
context of the academic environment and courses he
has absolute substantive due process rights to
participate in
His unique perspective as a jailhouse lawyer is self
evident from this lawsuit and all that it represents.
Of the millions of kids and parents defrauded, how
many were lawyers, how many were judges?
He is easily and objectively more unique as a
theoretical scientist studying the human proteome as
respondent’s best molecular biologists will so testify.
My sons life and the state of science itself have been
defrauded by four years by the Florida Dual
Enrollment Tyranny
Even if my prose was more artful, how could you
possibly fix that your Honor? No human could. You
can only immediately release him from this
unprecedented denial of fundamental liberty
WHEREFORE, upon the common law writ of habeas
corpus we pray a habeas court be convened to end the
abuse and coerce the executive of Florida to enroll Will
(and by extension myself as his disability facilitator) in
that which he was originally denied - a single one-hour
Directed Independent Study course for the remaining
few months of his high school eligibility,
Please
further direct that we be given immediate access to the
15

molecular biology and any other appropriate labs
containing a gizmo we want to use with personal
discretion to rim experiments with gizmo operation
assistance so that we can charge with all due vigor
upon testing the specific theories which Will was
illegally defrauded of lifetimes ago.
We further pray that the common law habeas court
convened sweep away any remaining procedural
hurdles greater than a Piphus hearing. Beyond this
we seek a common law habeas court to determine the
underlying legality of the denial of liberty for the
remainder of the 1.5 million children abused.
To be clear, record will substantiate that not only is
Will held in denial of substantive due process rights to
the states education system, but that the method of
denial was so overtly abusive and of such malice as to
shock the most jaded of judicial sensibilities,
If ten
percent of these allegations about how a criminal cabal
of government actors wantonly defrauded my sons civil
rights were true, this case would demand
extraordinary justice to quell willful tyranny.
To be equally clear, each of these allegations have been
procedurally agreed to in state proceedings.
In a
Florida state case which is decided on the pleadings,
any well pled fact not disputed is taken admitted as
true which we cite in FLSC 19-386 Mandamus Petition
3-8-19. This means that UCF has already admitted as
true the allegations regarding the Cook confrontation
in Spring 2016, which include the now proven points of
fact that she did misrepresent the state of law, did
agree to the fact that she nearly gouged my sons eyes
out in our first meeting with her, and did in fact admit
to UCF’s motive in the underlying fraud,
The fact
that UCF attempted a quashal (in the form of a miscaptioned “Motion to Strike” in 5DCA-2806 on
10-15-18) makes the admission of these points of (now
16

proven) fact overt and assertive, as it is well settled
law that a quashal attempt in a Florida extraordinary
case admits all points of fact as true.
This also means that they have agreed to the claim
that they knew what they were doing was illegal but
that we were simply too weak to make them not.
In 5DCA-2806 the cabal procedurally admitted that
they defrauded the court when they changed UCF
policy in the middle of the trial court case in ways
which were themselves fraudulent.
Nor did they argue the point of fact in SC19-386 that
they fraudulently called their police department on me
and did defraud me of my explicit right under Florida
Sunshine laws to be in the board meeting doing what I
had a right to do.
THEREFORE, we pray the relief sought of Will being
immediately enrolled in a single one hour Directed
Independent Study course in molecular biology focused
on Will’s research.
We pray this relief on the ancient writ, the one which
Thomas Jefferson would have thought of.
Jefferson stated that the common law which we
inherited was “the state of the English law at the date
of our emigration, [and] constituted the system
adopted here,” (Thomas Jefferson to John Tyler, 17
June 1812,) and he would have held highest regard for
a foe’s words on this subject,
While he publicly
derided Judge Blackstone for the effect of his writing
upon the legal profession, he did admit to his elegance
in prose. And where Jefferson accepted common law
he would have accepted the reality of Blackstone’s
description of it.

17

“Of great importance to the public is the
preservation of this personal liberty; for if once
it were left in the power of any the highest
magistrate to imprison arbitrarily whomever he
or his officers thought proper, (as in France it is
daily practised by the crown,) there would soon
be an end of all other rights and immunities.
Some have thought that unjust attacks, even
upon life or property, at the arbitrary will of the
magistrate, are less dangerous to the
commonwealth than such as are made upon the
personal liberty of the subject. To bereave a man
of life, or by violence to confiscate his estate,
without accusation or trial, would be so gross
and notorious an act of despotism, as must at
once convey the alarm of tyranny throughout
the whole kingdom; but confinement of the
person, by secretly hurrying him to jail, where
his sufferings are unknown or forgotten, is a
less public, a less striking, and therefore a more
dangerous engine of arbitrary government.”
Blackstone’s Commentaries, 1753
It would seem that for right or wrong these attacks
upon Will thus far in these pleadings, while “so gross
and notorious an act of despotism as must raise the
alarm of tyranny throughout the whole kingdom” do
not fit within Blackstone’s conception of habeas in
1753, a mere 23 years before ascension.
But it is well settled that the writ is not static and
adapts to fit the needs of the relief where such relief
lie. Even the codified and procedurally available writ
under 2241 now refer to the remedy being “as law and
justice requires”,
And with the benefit of perilous
experience 22 years after ascension, Jefferson had
evolved from accepting Blackstone’s conception of
habeas to the more liberal
18

“The Habeas Corpus secures every man here,
alien or citizen, against everything which is not
law, whatever shape it may assume.” -Thomas
Jefferson to A. H. Rowan, 1798
It would appear that with the benefit of hindsight
Jefferson has realized that Blackstone predicted that
“gross despotic tyranny” would be (and was)
automatically corrected through the remedy of tea &
blood, and that the peaceful revolution of political
evolution would be preferable.
Therefore, another question presented (for holding)
here is, is the common law writ of habeas corpus now
available to remedy what Blackstone referred to as
gross despotic tyranny?
Had Jefferson intended
Blackstone’s 1753 meaning, he would have so cited.
Every man.
Everything.
Whatever Shape.
The question is: do these words, written while
Jefferson was vice president, have legal meaning; or
are they conjecture of a man who no longer had
discretion to shape the Constitution or law once his
work as a framer was done and he was acting as the
executive?
Nature of the Restraint on Personal Liberty
The reason we only pray holding thereof is that this
court has jurisdiction to act under 28 U.S.C. 2241 as
we do also clearly fit within the pleading requirements
of the codified writ specified therein. He is clearly in
restraint of his liberty in ways not shared by the
general public.
Furthermore, those restraints have
19

been directly due to the executive asserting
jurisdiction over Will in ways which are clearly
unconstitutional. Even the most restrictive standard
“held in detention in an institution”, fully applies.
Each of the preceding jurisdictional elements are
substantiated below.
ARBITRARY RESTRAINT OF PERSONAL LIBERTY
NOT SHARED BY THE GENERAL PUBLIC
It is in early pleadings that Will literally tried to just
go to class to start in and explain / fix the paperwork
later but was denied by the range of institutional
mechanisms and in-house security and police forces
that exist for such reason at both UCF & Valencia. It
is early in pleadings the analysis of the quantity and
quality of work that Will produced just outside the
classroom looking in the windows; “for any course
which I have demanded as an eligible student, been
denied, and metaphorically sat outside the classroom
and done more and harder work than anyone inside; I
am due relief of such credit award based simply on the
work done.” 5DCA-1797 Extraordinary Petition dated
8-22-18, p. 17
He had a constitutional right to be there as these
constitutional guarantees in relation to exactly these
facts have already been sussed out & absolutely
He was denied that
guaranteed under Piphus.
absolute constitutional right by being denied the
personal liberty of crossing the threshold into
classrooms he had an indisputable right to be in as
He literally
extensively pled in state proceedings,
tried to bull his way into the actual classroom with the
same vigor he’s done everything in this case. The only
reason we’re here is because he was then unable to
overcome this restraint of his physical liberty to walk
into class.
20

DIRECT JURISDICTION ARBITRARILY ASSERTED
UPON BOTH OF OUR PERSONS
Mere days before Will stepped to the mic in packed
short matter / ex parte session, he was still 15. At all
times before that he had been subject to the illegal
underage escort policy.
This policy required anyone
under 16 years of age to be personally escorted at all
times while participating in the program as a
This policy is in direct
condition for eligibility,
contradiction with the additional initial eligibility
requirements clause of FS 1007.271(3),
“Additional requirements included in the
agreement may not arbitrarily prohibit students
who have demonstrated the ability to master
advanced courses from participating in dual
enrollment courses” Florida Statute 1007.271(3)
as it does arbitrarily prohibit any student who cannot,
for whatever reason, have a parent or guardian who
are able to attend school with their child.
There are
too many scenarios which would render this untenable
so as not to elucidate.
Furthermore, this would seem to broach uncharted
constitutional territory in the deprivation of personal
liberty of the parent as well, all without notice or due
process.
These matters of secondary due process are
not cited for technical reasons, they are the substance
of this case. Not anywhere prior to the signing of the
Articulation Agreement was it made clear that a
parent would have to walk their student to class and
back in order for him to participate per the rights
granted through statue. Substantive due process was
abused through the abuse of procedural due process.
Notice was never given until the coerced signing of the
Articulation Agreement which one must sign in order
for their student to participate.
21

It did impact us personally in material ways.
I am
physically disabled from this condition in ways which
precluded my being able to escort him most times.
One of the times I did I was aggressively confronted by
a security guard who had 6 inches and 50 pounds on
me and asserted that size for doing exactly what their
policy required. The security guard was clear that he
had no idea what I was talking about because he said I
should have a sticker or something if I was allowed to
be there.
I pointed out that I felt I had a right to be
there in any case, it was an unsecured space in a
government building which is freely available without
restraint in any case. This just made him madder to
the point that he crammed the two of us into a single
doorframe, chest to chest, and there had to be 650
pounds between us.
I’m an old man with grey hair
who at the time could barely walk and had to use the
restroom. The confrontation was unbelievable to the
point that the ladies into whose office the security
guard had physically sequestered me laughed with me .
after he left once they vouched that I could be there
with them.
He was very clear that the College’s
policy was to not allow anyone to be anywhere alone
without a sticker or something and there were no
stickers available.
I told him specifically that I was
required to be on campus escorting Will and that I am
also unable legally to join him inside class for all good
reasons.
Then, after a few months we got in overt trouble for
not following the escort policy to perfection,
The
security guard who chastised me for not escorting Will
was explicit in stating that if he was caught without
escort that it could result in his losing eligibility for
the program at the security department’s discretion.
The condition I have precluded me from doing so, so
22

we were outlaws trying to dodge security guards
throwing serious side-eye every time they saw us.
We are not claiming that Will is abused of this policy
currently, we claim here that Will was injured as a
result of it and that it would have been due for relief in
habeas at the time but given the judicial realities we
were correct not to point out that we disagreed with
the policy which vindictive security guards would use
to disqualify Will.
We do bring this claim upon the
knowable and significant classification of people who
are home education students in the state of Florida in
grades 6-12, as there are no limits on who may
participate in which eligible program therefore each
Home Education student is eligible to apply for
Valencia’s program. We further hope the jurisdiction
of this claim would allow for the underlying claims
herein.
But that is in no way a necessary
jurisdictional element, as the following is clearly and
explicitly the case
DETAINED IN AN INSTITUTION
Detained in an institution does not specify nor
differentiate what kind of institution.
The term
“institution” also seems to have already been expanded
to include health care institutions in the case of
mental health commitment, and that institution is
fundamentally defined as any facility which provides
housing, food, and other services to four or more
people, qualities UCF and Valencia share.
Furthermore UCF has proven their willingness to
arbitrarily use their police force of people with guns
and badges to nefarious end. I am apparently subject
to the arbitrary restraint of my personal liberty more
than the general public.

23

THE SALIENT ARGUMENT IN REGARDS
ARBITRARY RESTRAINT OF PHYSICAL LIBERTY
Habeas corpus is commonly considered to be
constrained to illegal confinement or detention of one’s
body through executive jurisdiction; we respectfully
point out that the size, scope, or additional liberties of
a jail are irrelevant. A gilded jail is still a jail, as is a
jail which is very, very large,
Any extra-judicial
jurisdiction by the government devoid of due process
which restricts liberty must be considered to reach the
bar for relief. Especially when these executive agents
wield their own security and police forces and exert
jurisdiction over citizens through them. Any material
restraint upon one’s liberty not shared by the public at
large without the benefit of due process is clearly
within the scope of relief of modern day habeas corpus.
My son is illegally restrained in his physical liberty by
the aforementioned in-house police and security to
approximately 99.999999% of the state.
Florida
Statute 1007.271(13) is clear that he has a right to
participate and be in that remaining 0.000001% which
is guaranteed by the 14th amendment of the
constitution.
The constitution does not guarantee a
right to education per se, but where an education
system has been established in a state no person may
be denied participation in that system per state law.
The 14th amendment clearly demands equal
protection under the law for each person, Will has a
right to participate in the courses sought per Florida
Statute 1007.271(13), courses which would necessitate
his physically being present in a secured environment
which they deny him access to.
He has been denied
the right to be in the places where he is indisputably
at liberty to be and doing that which he has statutory
right which defendants have a ministerial duty to
perform.
He has resultantly done more work of a
24

higher caliber than most of the courses he sought, just
not inside a classroom; because Governor DeSantis
and Governor Scott before him have exerted
jurisdiction and criminally confined Will to the
remaining 99.999999% of the state. But a large jail is
still a jail and any restraint on liberty not shared by
the public at large without the benefit of due process is
precisely what the modern day remedy of habeas
corpus is focused upon
THEREFORE, upon further consideration, it seems
that this is exactly the abuse which Blackstone spoke
of which is. “a more dangerous engine of arbitrary
government” than the tyranny which underpins it in
this case.
Will is secretly hurried off and restrained
from the places he is legally entitled to be doing the
things he has a sacred right and responsibility to do,
and they fraudulently and vexatiously use the legal
system itself to ensure that “his sufferings are
unknown or forgotten”,
The abused, currently 1.5
million of them, have no idea their rights are being
abused.
And the government presents Will’s
situation as such a minor and trivial intrusion so as
not to raise the spectre of tyranny, even when shown
to judges in the state.
A mad king’s officers lie to the magistrate and claim it
proper that Will be secretly hurried off in the dark
thusly, which as a result has truly brought about “an
end of all other rights and immunities”, including
Will’s right to life and property,
Blackstone was
right, but only to a degree. The real danger 200 years
later is that tyranny, properly pled and proven,
elicited only a shoulder shrug & a “meh”; a much more
perilous illness for democracy to suffer. Judges in the
highest court in one of these United States willfully
failing to correct tyranny.
I must admit to being
25

quite confused, lost in the dust of these chase of these
trials.
The reason we make application in the United States
Supreme Court is due to the extraordinary and unique
circumstances of the case.
This court should be the
body entrusted with these fundamental issues of
equity and justice which will affect the nation and
touch the entire world. Furthermore, this is an ideal
vehicle for adjudication of specific issues and holdings
which mirror events in DC with an unconventional
President pushing similar issues of power, discretion,
oversight and accountability,
As an American I
would appreciate the issues which will he applied to
this president having been adjudicated in such a pure
legal equation as this.
We pose these questions to
this court directly because “law and justice demand” it.
This is also clearly within the core of modern day
The question is of the
habeas corpus,
constitutionality of the indisputable restraint of my
son Will to be everywhere in the state except where
explicit statutory rights grant him the right to be.
Due to the extraordinary circumstances in this case,
there are no points of fact in dispute, as all have been
procedurally agreed upon in state proceedings.
There is no dispute between the parties that Will is
restrained of his liberty to be in classes which we
believe he has a constitutional right to physically be
in, the only dispute is that the executive inexplicably
asserts the right to deny my son’s liberties and
petitions the court for caselaw supporting an “absolute
right' to arbitrarily rule as they see fit.
And the
question of whether or not the restraint is
constitutional and had relied on due process and would
be immediately remedied by a release from such
restraint if found to be unconstitutional is precisely
26

the circumstances under which the present day writ is
granted
Reason for Exigence
The most salient of the many reasons for exigence in
this case is that fact that Will is only eligible for such
relief for a finite number of days, a number which is a
small fraction of his overall eligibility and is rapidly
dwindling. Each day beyond the 20 days guaranteed
in Piphus is literally one less day that he can gain
relief to.
This is true for each of the 1.5 million
minors currently being defrauded of their substantive
due process rights.
Reasons for Granting the Writ
a) The writ should be granted as a matter of ,
fundamental legal significance.
1) This case is the result of procedural due process
abuse by the judicial branch as a result of fraud
upon the court in the furtherance of fraud upon
millions of naive minors which willfully and
wantonly denied the substantive right to
education. The plenary review of the legality of
the denial of constitutional and personal liberty
is required to dispose of the matter as law and
justice require, and habeas is the remedy
offering such relief.
2) That review should include a consideration of
whether UCF and Valencia’s boards, replete
with government paid lawyers, were as
responsible as a high school principal for
ensuring a fair hearing on the substance as was
decided in Piphus.
3) The case has left meaningful appeal impossible,
as nothing on the substance was ever
27

A plenary de novo review will
adjudicated.
make proper appeals and original jurisdiction
possible, including by persons affected who were
not party to and naive of these proceedings.
The habeas review is unique in it’s reach to “look
through” the case to find precedents which the
court must have relied on in order for such
appellate functions to be meaningful
b) The writ should grant because state court was
clearly wrong in their application of law.
c) The writ should grant because my son has a
constitutional right to participate per law and was
denied specifically and only what we pray here,
The
single one-hour D.I.S. course which he was originally
denied
d) The writ should grant if the Constitution is still a
thing. The state of Florida does not believe it is and
should be coerced to follow it
Conclusion
The petition for a writ of habeas corpus should be
granted to determine the legality of Will’s restraint
and henceforth coerce Florida’s executive to enroll Will
in the single one-hour course which he was
unconstitutionally denied so long ago.

28

fen

Respectfully submitted,
William Henry Hamman
Alfred Risien Hamman

I declare under penalty of peijury that the foregoing is true and
correct. Executed on September 25, 2019

iman

AlfrecTltisien Hamman

29

